Certificate of Service
Glenn Galvan; Pro Se Petitioner v.

Nationstar Mortgage Inc., et al;

Respondents
Supreme Court Case No.:
This, Petition for Writ of Certiorari and updates and separate exhibits on separate
bounded book, Pursuant Supreme Court Rule 29 Original and copies have been sent
to United States Supreme Court and attorneys of the respondents via Mail Carrier
on the date transcribed below.
Pursuant to 28 U.S. Code § 1746 the undersigned declares and certifies under
penalty of perjury that the foregoing is true and correct.
April 3,2021
Glei
Pro Se
7866 Morgan Pointe Circle
Reno, Nv 89523
True Copies Sent VIA USPS

McCarthy i Hoithus
9510 West Sahara. STE#200
Las Vegas, NV 8 9I1C
Attn: Kristen Schuler-Hintz
: (Counsel for QLS)

Melanie Dawn Morgan, Esquire,
Attorney Direct: 702-634-5005
[COR NTC Retained] Akerman
LLP 1635 Village Center Circle
Suite 200 Las Vegas, NV 89144

Counsel for Nationstar
Ballard Spahr
1980 Festival Plaza Dr., Suite 900
Las Vegas, NV 89135
Attn: Joseph Sakai & Abran E.
Vigil
Counsel for Aurora Loan Services
36

AFFIDAVIT / DECLARATIONS
COMES NOW, Petitioner, GLENN GALVAN, acting in PRO SE hereby
submits Affidavit/ Declarations
UNITED STATES OF AMERICA )
STATE OF NEVADA

)

COUNTY OF WASHOE

)

I, GLENN GALVAN, hereby state under penalty of perjury that the following statements
are true to the best of my knowledge.
L I, Glenn Galvan, am the Pro Se Petitioner and party in this case in the U.S.
Supreme Court.
2. I, Glenn Galvan, born in North Carolina, am a United States Citizen, a resident of
Nevada in the County of Washoe, residing in the city of Reno.
3. I, Glenn Galvan, Pro Se Petitioner, declares that Petitioner filed this Petition for
Writ of Certiorari after the Nevada Supreme Court review was denied en banc on
September 11, 2020.
4. I, Glenn Galvan, Pro Se Petitioner, declare that The Statement of Facts, Case
Background and Case Procedural History listed in pages 10 thru 22 are true and
correct.
5. I, Glenn Galvan, Declare that the record will show in CV12-02785 Nationstar
Violated the court rules, NRCP 7(a) and 12, By NOT fifing an answer/responsive
pleading on time when the court filed Galvan's Counterclaims on December 26
2012. Nationstar filed their answer on January 30, 2013 After Galvan filed a default
on January 24, 2013.
37

6. I, Glenn Galvan, Declare that the record will show for CV12-02785 Nationstar
Violated the court rules, NRCP 16.1 By NOT Scheduling an early case Conference
Within 30 Days After Galvan filed his answer/responsive pleading on December 26,
2012. No scheduling orders were ever issued for CV12-02785.
7. I, Glenn Galvan, Declare that the record will show for CV15-01360 The respondents
listed in the above caption of this Application violated the court rules, NRCP 12(a)
for not answering the petitioner’s complaint that was filed on July 27, 2015. When
the respondents were properly served on August 28, 2015. In addition, the
respondents listed in the above caption never filed a motion to extend time to file a
responsive pleading in CV15-01360. The Respondents listed in the above caption
filed a Dispositive Motion On 12/10/2015 long after the 21 Days requirement to file
a responsive pleading and after the cases CV15-01360 and CV12'02785 Were
consolidated by a court order on 11/12/2015.
8. I, Glenn Galvan, declare that the record will Show that when Galvan filed his
complaint on July 27, 2015 for the Causes of Action of Fraudulent Concealment,
Notary Fraud or Fraudulent Misrepresentations, and Constructive Fraud were part
of Galvan’s complaint. [See Separate Appendix X].
Pursuant to 28 U.S. Code § 1746 the undersigned declares and certifies unc^r
penalty of perjury that the foregoing is true and correct.
Dated: February 5, 2021
Glenn Galvan
Pro Se
7866 Morgan Pointe Circle
Reno, Nv 89523

